Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




 Retooling State Medicaid Agencies 

                 For 

           Managed Care 





                   JUNE GIBBS BROWN
                   Inspector General

                       August1997
                      OEI-01-95-00260
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 9542, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’s Office of Evaluation and Inspections (OEI) conducts short-term management and 

program evaluations (called inspections) that focus on issues of concern to the Department, the 

Congress, and the public. The inspection reports provide findings and recommendations on the 

efficiency, vulnerability, and effectiveness of departmental programs. 


OEI’s Boston Regional Office prepared this report under the direction of Mark R. Yessian, Ph.D., 

Regional Inspector General. Principal staff contributing to the report included: 


Boston Region                                                                  Headaunrters 

Joyce M. Greenleaf                                                             Jennifer Antic0 

Dana L. Miller 

Russell W. Hereford 

Lynne Hostetter 




To obtain a copy of this report, please contact the Boston Regional Office by telephone at
(617) 5651050 or by fax at (617) 5653751.
             EXECUTIVE                            SUMMARY

PURPOSE

To identify the major organizational challenges State Medicaid agencies face as they shift
their focus to managed care and to offer preliminary assessments of how the agencies are
responding to these challenges.

BACKGROUND

At a rapid pace, most State Medicaid programs are shifting their enrollees from traditional
fee-for-service health care to managed care arrangements. These still evolving
arrangements include primary care case management (PCCM), comprehensive, full-risk
managed care, and capitated carve-outs of particular services, such as mental health.

For the Medicaid agencies, this transition is fundamental. They are faced with retooling
themselves, much like private corporations do when entering new markets or introducing
new product lines. This inquiry defines the key challenges these agencies face in making
this adaptation and offers feedback on how they are meeting them. It is based on a review
of the experiences of 10 State Medicaid agencies strongly committed to managed care.

MANAGED CARE PENETRATION

The degree and type of Medicaid managed care penetration in the State has a major
bearing on the organizational challenges facing a Medicaid agency. The more that
Medicaid beneficiaries are enrolled in managed care of any kind and in full-risk managed
care in particular, the more that agency management finds itself compelled to uproot its
fee-for-service infrastructure and develop new organizational tasks, roles, and structures.

We have identified three stages of penetration. Stage III represents what we call the
breakthrough point. At that point, nearly all Medicaid enrollees are in full-risk managed
care. Staff redeployment is extensive. The fee-for-service sector no longer dominates.
Only 1 of the 10 agencies has reached this stage. Among the others, five are in Stage I,
four in Stage II.

CHALLENGES AND RESPONSES

We have identified five major organizational challenges. They are by and large
sequential. Most States have considerable experience in addressing the first two, but have
barely begun to address the last three challenges. Below we present the challenges and
characterize the agencies’ responses to them.




                                              i
Establishing core developmental teams.

The agencies have experienced much success in establishing teams drawn almost entirely
from staffs of Medicaid and other State agencies. A downside is that they tend to be
isolated from the fee-for-service operations, making it more difficult at times to carry out
budgeting and other agencywide functions.

Acquiring necessary knowledge and skills.

The agencies have made extensive use of consultants for ratesetting, computer
modifications, and other functions. Few agency staff have experience in the managed care
industry. With outmoded State personnel systems and minimal investments in staff
training, the agencies face significant constraints developing sufficient staff expertise.

Instilling a new mission and culture.

In most cases, this challenge has barely been addressed, with staff concerns mounting.
Some promising strategies, however, are apparent. One is to foster value-purchasing as a
goal pertinent to both fee-for-service and managed care sectors. Another is to organize
work units in ways that integrate roles across the two sectors.

Redeploying fee-for-service    staff.

Once again, this challenge has barely been addressed. In nearly all States, the heaviest
users of health care services remain concentrated in fee-for-service sector, thereby
minimizing opportunities for staff redeployment. But pressures to move in this direction
are building as managed care enrollment accelerates.

Avoiding a fee-for-service    meltdown.

Some danger signs are apparent. Less innovation, lower morale, and slower responses in
Medicaid fee-for-service sector jeopardize Medicaid service and oversight roles. These
danger signs are especially apparent with respect to the following traditional fee-for-
service functions: third-party-liability, surveillance and utilization review systems, and
drug utilization review.

RECOMMENDATIONS

In State Medicaid agencies, State legislatures, and the Health Care Financing
Administration, retooling has been a low-priority issue. In each sector, the focus has been
on the substance of managed care efforts and on their effects on providers, beneficiaries,
and taxpayers.

As Medicaid agencies approach and enter Stage III, they will be compelled to devote more
attention to the retooling issue. The HCFA, as the Federal partner in the Medicaid


                                              11
program, can encourage and help them to address this issue constructively.      Our
recommendations are made in that context.

The HCFA should provide forums to help State Medicaid agency managers take
advantage of the opportunities managed care presents for retooling their agencies and to
minimize the associated dangers.

These forums could be at the national level, through the establishment of a work group or
technical advisory group, as well as at regional levels, through the efforts of regional
offices.

The HCFA should revise its review and monitoring protocols so that they devote greater
attention to how State Medicaid agencies are handling the organizational challenges
associated with expanded managed care.

Particularly as agencies approach and enter Stage III, it is vital that the retooling issue be
taken off the backburner, where it typically resides, and be given major attention. The
HCFA can encourage such change by giving greater attention to the organizational
challenges when it reviews State agency plans and activities.

The HCFA, in its ongoing reviews of State Medicaid agencies, should scrutinize possible
adverse effects of managed care expansion on the performance of established fee-for-
service functions.

This matter, we are suggesting, warrants special attention, especially as it relates to the
third-party-liability, surveillance and utilization review subsystems, and drug utilization
review functions.

COMMENTS ON THE DRAFT REPORT

We solicited and received comments on the draft report from HCFA, the Acting Assistant
Secretary for Health (ASH), and the Assistant Secretary for Planning and Evaluation. The
latter concurred with our recommendations without further comment. The complete text
of the HCFA and ASH comments appear in appendix B. Below we summarize their
comments and, in italics, offer our response.

The HCFA concurred with the first two recommendations and partially concurred with the
third. It noted that ongoing activities and action taken in response to the first two
recommendations would lessen the need for scrutinizing possible adverse effects of
managed care expansion on fee-for-service functions. In addition, HCFA suggested that
the States discussed in the report be given opportunity to comment on the report and that
our reference to “danger signs” in the fee-for-service sector be changed to “concerns.”
We decided to retain the former term because it more accurately rejlects what we heard
and found in the study States. At the same time, as we note in the report, we refer to
danger signs in the context of early alerts that could emerge as sign@cant problems if not
adequately addressed.   As for obtaining reactions from the States, we have received and
 taken into account considerable   comment from the States in the course of framing   our
jindings and recommendations.

The Acting Assistant Secretary of Health did not comment on the specific findings or
recommendations in the report, but did offer four suggestions that could enhance the
transition process to Medicaid managed care. They are helpful suggestions that warrant
consideration by the States and HCFA. They concern the involvement of the State health
departments in the managed care process, the need for broad stakeholder involvement in
the process, the need to strengthen the integration of public health concerns into the
change process, and the importance of strengthening compliance, monitoring, and
evaluation at the State level.




                                               iv
                         TABLE                          OF             CONTENTS

                                                                                                       PAGE

EXECUTIVE SUMMARY

INTRODUCTION                 ...........................................

MANAGEDCAREPENETRATION                                        ..............................               .

CHALLENGES AND RESPONSES ...............................                                                   5


     Success in Establishing Core Teams                          .............................             5


     Some Concerns in Acquiring Necessary Knowledge and Skills .............                               6


     Limited Progress in Instilling New Mission and Culture .................                              7


     Minimal Efforts in Redeploying Fee-For-Service Staff .................                               10 


     Danger Signs for Traditional Fee-For-Service Functions ................                              11 


RETOOLING AS AN ISSUE ..................................                                                  15 


RECOMMENDATIONS                         .....................................                             16 


COMMENTS ON THE DRAFT REPORT                                               .........................      19 


APPENDICES .............................................. 


A: Background on Medicaid Managed Care .........................                                         A-l 


B: Complete Comments on the Draft Report .........................                                       B-l 


C: Endnotes ............................................                                                .C-1 

                           INTRODUCTION

PURPOSE

Our purpose in this inspection is twofold: (1) to identify the major organizational
challenges State Medicaid agencies face as they retool their agencies to support the growth
of Medicaid managed care and (2) to offer preliminary assessments of how the agencies
are responding to these challenges.

TRANSFORMATION OF STATE MEDICAID AGENCIES

Most State Medicaid agencies are undergoing rapid transformation. They are shifting
from a traditional focus on fee-for-service health care to one increasingly defined by
managed care. The managed care arrangements will involve any one or mix of the
following: (1) primary care case management (PCCM), (2) comprehensive, full-risk
managed care, and (3) capitated carve-outs of particular services, such as mental health,
substance abuse, or dental services (see appendix A).

In this environment, the managers of State 

Medicaid agencies face an imposing new set of 
                State Medicaid Agency
                                                             Managed Care Responsibilities
responsibilities that call for them to apply sound 

business practices and remain closely attuned to 
       . Definingtypeso,managedcc2re,
the health care marketplace. In both these 
             . Developing health plan contracts. 

respects, they find little guidance in the past 
        . Negotiating rates. 

policies and practices of their agencies. 
              , Educating benejiciaties. 

                                                         . Educating providers. 

                                                           Ensuring patient access to providers, 

In recent years, articles, books, and reports have 
     : Coordinating with other agencies.
been produced that explain these new 
                   . Meeting with stakeholders.
responsibilities and that indicate how the States 
      . Developing new duta systems.
have been responding to them. * There has been 
           * Overseeingheazthplans,
much less attention to the organizational 

challenges the Medicaid agencies confront as they 

carry out their new managed care responsibilities. * 
 Yet, the challenges are fundamentaL3
They call for the agencies to reengineer themselves, 
 much like private corporations would
when entering a new market or developing a new product line. How well the agencies
make this adaptation could well have a major bearing on the long-term success of their
managed care efforts. It is a matter warranting further inquiry.
THIS INQUIRY

This inspection focuses on the internal adjustments facing State Medicaid agencies as they
move toward managed care. It starts out by addressing how these adjustments are
influenced by the extent of Medicaid managed care in a State. It then identifies the major
organizational challenges faced by the Medicaid agencies as they increase their
commitment to managed care and addresses how they have been responding to those
challenges.

In tackling this topic, we recognize that any generalizations about the Medicaid program
that cross State boundaries can be hazardous. An often expressed adage among Medicaid
directors is: “If you have seen one Medicaid program, you have seen one Medicaid
program. ‘I4 Yet in a broad sense, currents of change are apparent among the States and
are helpful to highlight, even if they do not adequately reflect what is happening in any
individual State. In our synthesis observations, we focus on those currents. To reflect
some of the diversity that exists and to minimize the danger of our becoming too abstract,
we offer examples of developments occurring in particular States.

Our inquiry is based primarily on a review of the recent experiences of 10 State Medicaid
agencies that have made strong commitments to Medicaid managed care. The States are
diverse in terms of their location, size, and experience with managed care.’ They are
clearly among the top half of States in terms of the proportion of their Medicaid
beneficiaries in managed care. For each of the States, we interviewed agency officials
and reviewed pertinent documents. In three, we conducted in-depth visits that also
included interviews with representatives of health plans, advocacy groups, State
legislatures, other State agencies, and Medicaid enrollees.

Our inquiry does not address the internal adjustments that the move toward managed care
presents for other State agencies, such as those focusing on mental health, public health,
mental retardation, elder affairs, and social services. These adjustments can be significant
since Medicaid often serves as a major source of funding for their service operations and
since managed care can lead to major changes in these operations. The organizational
effects in these other agencies warrant attention. But with the reverberations of managed
care likely to be most immediate and consequential within in the Medicaid agencies, we
have decided to concentrate this inquiry on them.

We conducted this inspection in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              2

         MANAGED                       CARE             PENETRATION

The degree and type of Medicaid managed care penetration in a State has a major
hearing on the extent of the organizational challenges facing the State Medicaid
agency.

The challenges we are examining in this report do not occur in a vacuum. Both the extent 

and nature of the challenges are heavily influenced by numerous factors, many of which 

are beyond the control of agency management. Among the more important of these 

shaping influences are: the rapidity of the movement toward Medicaid managed care;6 the 

extent of managed care in the private marketplace;7 the extent of the agency’s prior 

experience with managed care,*’ the size of the State’s Medicaid program;’ the 

complexity of the managed care program;” and the extent and manner in which other 

State agencies regulate managed care organizations.” 


As important as these factors are, we learned that another factor is likely to have a more 

enduring effect on the challenges facing agency management as it seeks to gear up its 

organization to carry out managed care responsibilities. It involves the degree and type of 

Medicaid managed care penetration in a State. The more that Medicaid beneficiaries are 

enrolled in managed care of any kind and in full-risk managed care in particular, the more 

that agency management will find itself compelled to uproot its well-established fee-for-

service infrastructure and develop new organizational tasks, roles, and structures. 


Among the 10 States we reviewed, we identified three key stages of Medicaid managed 

care penetration (see table 1): 


                                            TABLE 1
                   STAGES OF MEDICAID       MANAGED   CARE PENETRATION

 Stage        Managed Care       Full-Risk        Organizational   Implications                        States
              Enrollment         Managed Care
                                 Enrollment

              Substantial. Can   Negligible to    Modest. Agency forms core managed care               MA
              include majority   moderate.        staff. Adjustments in computer systems,              NY
              of                                  provider relations, and beneficiary education.       FL
              caseload.                                                                                OH
                                                                                                       MO

              Majority of        Dominant mode.   Substantial. Agency redefining itself as             CA
              caseload.                           purchaser of health care. Major focus on             RI
                                                  enrolling beneficiaries and overseeing health        MN
                                                  plans.                                               UT


 III          Nearly all of      Dominant mode.   Far-reaching.   Agency reaches breakthrough          OR
              caseload.                           point. Extensive staff redeployment.    Fee-
                                                  for-service sector no longer dominant.
          -                                                                                        -



                                                   3

In Stage I, the Medicaid agency has made a substantial commitment to managed care--one 

that is likely to encompass most or all of the families with dependent children and perhaps 

even some of the aged, blind and disabled beneficiaries. Some of these individuals may 

be enrolled in full-risk managed care, but most are likely to be in PCCM and/or carve-out 

arrangements. This change calls for some adjustments in traditional agency operations. 

But the reverberations are relatively contained because the fee-for-service system remains 

essentially intact. Beneficiaries in PCCM and carve-out arrangements continue to receive 

much care from providers who continue to bill Medicaid for each episode of ca.re.12 


In Stage II, the critical difference is that full-risk managed care becomes mainstream. The 

agency begins to reposition itself as a purchaser of services from relatively few health 

plans rather than as a payer of bills from thousands of providers. In one way or another, 

more and more agency staff are involved in defining, supporting, and overseeing the work 

of health plans. The demands on the fee-for-service sector of the agency begin to 

diminish and staff accustomed to working on functions such as prior authorization or 

surveillance and utilization review must learn new roles. In this milieu, reorganizations 

are common. 


In Stage III, full-risk managed care becomes even more dominant to the point where it 

encompasses many or even most of the aged, blind, and disabled beneficiaries. Although 

a minority of the caseload, they have accounted for a majority of agency expenditures and 

claims processed. As such, they have been instrumental in sustaining the fee-for-service 

sector of the Medicaid agency during Stages I and II. As these “high-user” beneficiaries 

join full-risk health plans, the foundation of the fee-for-service operation begins to give 

way. The agency reaches a breakthrough point that calls for far-reaching changes in its 

internal organization and in its use of agency staff. 





                                              4

       CHALLENGES                          AND         RESPONSES


Our review of 10 State Medicaid agencies revealed 5 major internal challenges they face
as they adapt to managed care. The challenges, in essence, are generic ones that any kind
of organization is likely to face in making a fundamental shift in its products and modes of
operation. In this section, we explain the challenges and the agencies’s responses to them.
In large part, our discussion of the responses offers further illustration of the challenges
by revealing the obstacles confronted in the implementation process.13

Challenge #l: Establishing a Core Developmental Team

To chart the course, the Medicaid agencies must assemble a leadership core that is
committed to the managed care mission, energized by the conceptual and operational
challenges it creates, and determined to persevere in the midst of complexity and
uncertainty. This core must extend beyond the level of politically appointed officials into
the career staff of the agency.

The formative stage of managed care program design and implementation can extend over
a number of years. It is a period of innovation requiring people at the helm who thrive in
such environments. The feasibility and durability of the reforms are likely to be enhanced
if the leadership team includes some individuals that have been part of the agency’s career
staff and that are well-steeped in the operational and policy landscape of the Medicaid
program.

b Each of the agencies has assembled a core of officials who are strongly committed
to managed care reforms.

In most of the Medicaid agencies we reviewed, there is a core managed care leadership
that is highly committed to managed care reforms. l4 The members of the team tend to
see these reforms as vital not only for containing costs, but also for improving the access
of beneficiaries to good quality care. They are curious about the dynamics of the health
care marketplace and about how the agency can best relate to it. They seek to act as
prudent purchasers of health care on behalf of their customers -- the Medicaid
beneficiaries.

The core staff come almost entirely from the fee-for-service sector of the agency or from
other State agencies. Staff in the Medicaid agency tend to see the managed care office as
the place where the action is and as a good place to get ahead. Or at least to avoid losing
ground. As one State official noted: “Everyone knows that the office of managed care
will be the last place to suffer any downsizing.”
b For the most part, the core staff work in isolation from the fee-for-service part of
the Medicaid agency.

The fast pace and the frequent crises that characterize managed care offices may
contribute to their isolation from staff operating the routine fee-for-service operations. A
comment by one managed care official echoed by many of his counterparts was: “we are
an island unto ourselves. ” Many managers indicated to us that such separation is
necessary during the early developmental phases of managed care, but can become
dysfunctional if still applicable as managed care becomes more established. For instance,
in one agency, managers informed us that with fee-for-service and managed care staffs
speaking very different languages, the job of budgeting had become very difficult.

Challenge #2: Acquiring the Necessary Knowledge and Skills

As Medicaid agencies become increasingly committed to managed care, they must have
ready access to knowledge bases and skills that are different than those typically held by
their fee-for-service staffs. They become particularly dependent on expertise in
negotiating contracts with health plans, in developing and carrying out quality assurance
systems, and in relating to stakeholder groups.

In the early period, developmental, planning, and public relations capacities are of great
importance. Later, once managed care becomes more mainstream, monitoring and
evaluation capacities become much more significant. Throughout, however, the agencies
find themselves with a greater need for staff with broad backgrounds who can understand
health care delivery systems and who can fit the pieces together.

b In developing their managed care efforts, the agencies have been able to tap into
considerable expertise.

Most of the agencies have relied heavily upon consultants, both for technical assistance on
matters such as ratesetting, contract development, and computer modification, and for
ongoing service functions, such as pre-enrollment education and actual beneficiary
enrollment. In Rhode Island, the Medicaid agency has turned to a consultant firm to carry
out a central, ongoing leadership role for its overall managed care effort.

The other State agencies we reviewed have relied more fully on their own staffs to
provide direction. In Massachusetts, the agency built up a core staff by bringing in many
individuals experienced in the managed care industry, either directly with health plans or
with employers purchasing services from the plans. This, however, has been the
exception. In most of the agencies, few if any staff have industry experience. Yet,
mainly through on-the-job training and trial-by-fire, many of them have gained
considerable know-how about managed care. To date, more of that know-how seems to
relate to purchasing and contract development than to health plan oversight. But that is
changing as the number of Medicaid enrollees in full-risk health plans continues to
increase.


                                              6

b In building up and maintaining their own staff expertise, the agencies face
significant constraints that emerge from outmoded State personnel systems and from
minimal investments in staff development.

Medicaid agency managers routinely
complained to us about State personnel            California’s “Broken” Civil Service System
systems that make it enormously 

                                              “Cahfornia ‘s Civil Senice System is broken. Today, 

difficult for them to recruit people with
                                             there are no rewards fi9r outstanding pe;rfotntance
experience in the managed care               and no consequences for poor petfonnance.       It is
industry, to rotate agency staff among       dijicult to hire outstanding applicants, and it is
different positions, and to give             d@cult to fire the ‘bad apples. ’ Salary is based on
sufficient rewards based on                  longevity, not productivity. In a rapidly changing
                                             technological environment, workers lack adequate
performance. l5 Every bit as much,
                                             training. It is a topsy-turvy world charactetized by
they expressed concerns about the            perverse incentives. It must be changed. *
meager resources available for staff
development. Rarely, for instance,            (From “Competitive Government: A Plan for kss
could they even send an employee to an       Bureaucraq, More Results, olgice of the Goverttor,a
                                             Am-i1 1996.)
out-of-State conference.

Over time, many officials stressed, the consequences of this situation become troubling.
Capable, experienced staff leave. Some career staff end up in roles for which they are ill-
suited. Some become too dependent for day-to-day learning on the staff of the health
plans which have contracts with the Medicaid agency. A number of plan representatives
reminded us that they regularly educate Medicaid staff about how managed care works.

Challenge: #3: Instilling a New Organizational Mission and Culture

For Medicaid agency staff accustomed to the fee-for-service routines, managed care
portends fundamental change. It means that they must reorient themselves to an agency
that is beginning to focus on beneficiaries rather than on providers and to define itself
more as a health care purchaser than a bill payer. Agency leadership must find ways of
enabling staff throughout the organization to make this transition.

Toward the later part of Stage I and into Stage II, it becomes increasingly apparent that
managed care represents more than marginal change affecting one sector of the Medicaid
agency. In fact, it looms as a paradigm shift, recasting the role of the Medicaid agency
and most of its workforce. A before and after analysis prepared by the Minnesota
Department of Human Services reveals the extent of this shift (see table 2).




                                             7

                          TABLE 2 

PARADIGM SHIFT FOR MINNESOTA DEPARTMENT OF HUMAN SERVICES 

Components                Old Approach                 New Approach
Agency role               Service agency               Service agency for non-health 

                                                       care/purchaser for health care 

Management approach       Mix of assistance,           Business contractual relations for 

                          collaboration, regulatory,   health care purchasing; 

                          and contractual              collaborative approach for non-

                                                       health care 

Areas of responsibility   Individual programs          Population based rather than 

                                                       program based 

Approaches to             Regulation                   Flexible strategies for 

responsibility                                         contracting for specific results 

Goal                      Operating programs           Assuring value: access, 

                                                       accountability, and affordability 

Purchasing strategy       Reimbursement of             Managed competition 

                          individual services
Eligibles                 Recipients                   Enrollees 

Provider relationships    Individual service           Care delivery network 

                          providers
Managed care              HMOs                         Managed network care delivery 

contractors                                            systems 

Accountability            State and provider           Individual, state, care delivery 

                                                       networks 

Quality                   Regulatory approach          Quality improvement systematic 

Purchasing role           Through counties and         Joint purchasing strategies 

                          tribes; directly with
                          individual providers




                                                8

b For the most part, the agencies have not yet addressed this challenge.

The move toward managed care does not occur as surely and orderly as our sequential
schema may suggest. Medicaid agencies carrying out PCCM and/or full-risk managed
care efforts confront ongoing complexities that concern policy design, operational detail,
and political controversy . These realities almost invariably reinforce a short-term
perspective, with little time for cultivating strategies that will instill a new mission and
culture in a successfully transformed agency.

In Stage II the consequences of such inattention begin to mount. Staff who are not yet
part of the managed care effort become more concerned about what the effort will mean
for them. For instance, with many third-party-liability (TPL) functions being passed on to
health plans for their Medicaid enrollees, TPL staff wonder how their jobs will be
affected. Will their skills be transferrable? Indeed, will their jobs be threatened? Left
unanswered, such questions jeopardize staff morale and productivity. l6

The consequences can also be worrisome for agency staff who have already been given
managed care responsibilities. Some of them remain uneasy in their new situations,
uncertain about the implications or merits of the paradigm shift noted above. Some find
their instinctive way of viewing the Medicaid program remains rooted in the traditional
fee-for-service program. They may find it difficult, for instance, to adjust to oversight
roles that focus on the dangers of underutilization in managed care arrangements after
years of contending with the overutilization biases of fee-for-service systems.

b Some agencies have undertaken what appear to be promising approaches to
encourage staff acceptance of managed care.

In various ways, some agencies are seeking to deemphasize the dichotomy between
managed care and fee-for-service and to foster integrative perspectives that cut across
these sectors. One such approach is to explain the agency’s new mission in such terms.
For instance, the Ohio agency stresses its aim to maximize its leverage in the marketplace
and to get the best possible deal with respect to cost, quality, and access. It poses this
overarching value-purchasing goal as one pertinent to both the fee-for-service and
managed care sectors and to hybrid initiatives involving both.

Another depolarizing approach is to organize work units in ways that integrate roles
across the two sectors. The Minnesota agency, for example, has developed what it terms
“cross-cluster project teams” responsible for basic Medicaid benefits, continuing care for
special populations, health care purchasing, and quality improvement. The Missouri
agency has placed fee-for-service and managed care staff together in multiple units, with
the intent to foster staff buy-in and to change the agency’s mission.

Some agencies are also furthering staff buy-in by hiring consultants to help identify staff
concerns and means of responding to those concerns. The Oregon agency, now in Stage
III, used consultants to help it work on morale, relational and teamwork issues as it



                                               9

expanded the scope of managed care. More recently, the Massachusetts17 and
Missouri” agencies have been doing the same.

Challenge #4: Redeploying Staff

Continued movement toward Stage III leads to a point where the fee-for-service workloads
diminish and the agencies must redeploy significant numbers of the fee-for-service staff
into managed care roles. Most of these individuals will have little preparation for their
new roles.

In each State except Oregon, the fee-for-service sector still accounts for the great majority
of Medicaid agency staff. In those States, agency leadership faces the enormous challenge
of redeploying much of that staff into managed care while maintaining morale and
operating both fee-for-service and managed care programs. l9

b Thus far, most of the agencies have not reached the point of redeploying major
segments of their fee-for-service staff. In fact, many report that their staffing needs
for managed care have increased faster than those for fee-for-service have declined.

The fee-for-service sector caseload includes the sickest individuals generating the most
claims. As long as most of them remain in this sector, they will continue to call for a
disproportionately large share of agency staff support. This slows the pace at which the
Medicaid agencies can phase down fee-for-service operations. So too do other largely
unavoidable factors. One is what some claims processing staff describe as the “trailing
effect,” whereby fee-for-service claims for beneficiary services come in as much as 1 year
after beneficiaries have shifted to managed care. Another is a temporary, but sometimes
significant increase in inquiries to provider relations staff from providers seeking
clarifications about the implications of new managed care policies.*’

In some States, continued pressures on the fee-for-service staffs appear to sustain a
separation between fee-for-service and managed care staffs. One agency manager noted
that those pressures prevent the agency from shifting staff as it would like and make it
hard for the agency to come together. In other States, the agencies have developed
explicit policies of gradually incorporating some managed care responsibilities into the
work of fee-for-service staff. A manager in an agency that has taken this approach said
that it has enabled more staff to be supervised by some in their own discipline and, as
such, has lead to a greater overall commitment to managed care.

b In many of the agencies, the move toward major staff redeployment is imminent.
Both internally and externally, pressures toward this end are mounting.

One agency director said: “We are now at the point of making decisions of where to drop
off fee-for-service pieces. ” Agency managers in other States made the same point. In a
number of States, the fee-for-service claims volume has just recently begun to decline.
This suggests some freeing up of fee-for-service staff. In some States, most especially
California, legislatures are becoming increasingly aware of this development and


                                              10
beginning to look for associated
budget savings,*’                                   Pressing for Administrative Savings

                                         In reviewing the Governor’s Medicaid budget for Fiscal Year
In one traditional fee-for-service
                                         96/97 budget, the California Legislative Analyst’s Office
sphere--surveillance and                 recommended eliminating 48 field office positions and
utilization review (SURS)--the           reducing the claims processing contract. These actions, it
momentum toward staff                    held, could save $3.3 million, and were justified because
redeployment appears to be               managed care expansion was contributing to a dectining fee-
                                         for-service workload.
gaining particular strength. In a
number of the agencies, many
                                         The Governor’s Office successfully maintained that such
SURS staff have been refocusing          reductions were premature for that year. However, in its
on quality improvement                   Fiscal Year 97198 budget, it has proposed a reduction of $3.1
functions as opposed to the              million and 60 positions in Medicaid prior authorization staff
traditional fraud and abuse              because   of the advance of managed care.

investigations. In some cases
this has entailed transfers to new
organizational units; in others, a realignment within existing units.

Challenge #5: Avoiding a Fee-For-Service Meltdown

In the shadow of managed care, fee-for-service often becomes viewed as the residual
sector responsible for an outmoded product line. Yet, even into Stage III, it is likely to
account for a majority of Medicaid expenditures and staff. Medicaid agencies must find
ways of maintaining the effectiveness of this product line as they diminish its scope and
continue to expand managed care.

One Medicaid agency manager framed the challenge well by asking these questions:
“How do you manage two systems concurrently ? You have people on both ends and
people floating in the middle. How do you get people to change and get people who
understand and have skills for both systems?“**

b Less innovation. Lower morale. Slower responses. These and other danger signs
are becoming increasingly apparent in the fee-for-service sector of the agencies.

Managers in most of the agencies we contacted indicated that the heightened attention
being given to full-risk managed care was having some dysfunctional consequences on
traditional fee-for-service operations. Although they did not see these consequences of
great concern at this point, they believed that they could intensify as the move toward
managed care accelerated. They indicated that the undesirable effects tend to be subtle
and gradual, stemming from reduced program innovation and initiative on the fee-for-
service side. Particularly common is reduced access to agency programming staff, who
tend to be focused on managed care efforts and less available to help with efforts such as
the development of new payment methodologies for various fee-for-service functions.

This situation, as one manager noted, could well require a greater tolerance for errors in
the fee-for-service sector. For instance, reduced provider education efforts by provider


                                                     11
relations staff could (and some say do) contribute to a higher rate of erroneous provider
claims which end up being denied.

In table 3, we address the effects of managed care on six selected fee-for-service
functions. Our observations focus on the big picture that emerges when considering the
10 States we reviewed. In various ways and to varying degrees, of course, each State’s
own situation varies from the synthesis observations we offer.


                                        TABLE 3 

            EFFECT OF MANAGED CARE ON TRADITIONAL FEEFOR-SERVICE FUNCTIONS 

 Function           Extent of      Nature of Effect
                    Effect

 Third Party        Moderate to    TPL role typically passed on to health plans. Leading to reduction in
 Liability (TPL)    Substantial    State agency TPL staffs and loss of agency expertise. Widespread
                                   concerns that health plan dollar recovery results will be less than those
                                   achieved by the agency.

 Surveillance and   Moderate to    Reductions in SURS exceptions and fee-for-service SURS staff.
 Utilization        Substantial.   Refocusing on quality measurement and targeted studies. Decreased
 Review Systems                    support for fee-for-service investigations. Little staff experience with
 ww                                managed care investigations.

 Drug Utilization   Moderate to    Most States give DUR role to health plans. DUR staff have little
 Review (DUR)       Substantial.   connection with agency managed care staffs or with health plan DUR
                                   efforts. Most prescription drug expenditures still accounted for by aged
                                   and disabled fee-for-service population.

 Provider           Moderate.      Transition process triggers increase in inquiries. Signs in some States
 Relations                         of dysfunctional effects such as longer response times, less attention to
                                   proactive provider education, and even an undermining of staff service
                                   ethic.

 Claims             Moderate.      Programming changes to accommodate managed care enrollments,
 Processing                        payments, and encounter data. Five to 10 percent reduction in claims
                                   volume in some States. Some slippage in fee-for-service housekeeping
                                   tasks, such as correcting errors.

 Prior              Minor.         Minimal signs of drop-off in workload as aged, blind, and disabled
 Authorization                     cases continue to sustain prior authorization efforts. But in a few States
                                   discussions already beginning about how to plan for substantial staffing
                                   reductions in next 2 to 3 years.


Our review reveals that the danger signs are particularly notable for three traditional fee-
for-service functions. The first, and perhaps most pressing danger involves, the
delegation of third-party-liability (TPL) responsibilities to the health plans.23 These
responsibilities involve identifying and obtaining payments from any other sources of
insurance or coverage held by Medicaid beneficiaries. This is a process in which many
Medicaid agencies have become quite adept and have used to achieve significant
savings.% Most health plans, in contrast, have little experience with TPL tracking and
recovery techniques. As long as prior fee-for-service TPL savings are reflected in
capitated rates, the potential financial risks to Medicaid are contained. The enduring



                                                      12 

challenge will be to ensure that capitated arrangements do not erode the incentives and
expertise needed to maximize TPL recoveries.25

The second concern centers around signs of a diminishing focus on fraud and abuse
investigations in the fee-for-service sector at a time when that sector is still the dominant
one in the great majority of State Medicaid agencies. This concern is reinforced by a
recent Office of Inspector General report documenting a decline in the number of
suspected fraud referrals to State Medicaid Fraud Control Units.26 As important as it is
to gear up to handle the new oversight responsibilities associated with managed care, a
reduced scrutiny at this point on the fee-for-service side would seem to be an unacceptable
price.

Finally, delegating DUR responsibilities to health plans raises concerns about how fully
DUR programs are being used to oversee the adequacy of drug therapy regimes of
Medicaid managed care enrollees. In accord with the requirements of the Omnibus
Budget Reconciliation Act of 1990, State Medicaid agencies have developed DUR
programs geared to their fee-for-service beneficiaries.27 But, as we stressed in a prior
report addressing the lessons learned by those programs, the infrastructure and insights
they developed become increasingly irrelevant as beneficiaries are enrolled in health
plan~.*~ Thus far, the agencies report that they have little information about the thrust or
effects of the plans’ own DUR efforts. Adding to our sense of concern are findings in
one of our more recent reports that most health plans contract with pharmaceutical benefit
management companies to manage their prescription drug benefits and conduct only
minimal oversight of the performance of these firms.29

These concerns, we emphasize, are put forth as danger signs - as early alerts to what
could emerge as significant problems if not adequately addressed. At the same time, we
recognize that with proper guidance fee-for-service management can actually be
strengthened as managed care expands. To some degree, this may in fact be happening in
some States, especially those with large PCCM programs.30

F Notwithstanding     the danger signs, the fee-for-service sector of Medicaid agencies is
not moribund.     Within it are some creative st.irrings that could contribute
significantly to reinvigorat.ed Medicaid agencies in the years ahead.

Particularly promising are those initiatives that seek to introduce a value purchasing
approach to that sector. The Ohio agency, for example, has engaged in selective
contracting for home and community based services and has negotiated a contract with a
single provider for vision care services. Other agencies have taken similar approaches,
which represent a significant contrast from the traditional bill-payer orientation of
Medicaid agencies, but yet are not capitated managed care.

Many agencies are also actively involved in managing the care of certain high-cost
beneficiaries who continue to be served within the fee-for-service sector. For instance,
the California agency has been carrying out a medical case management program directed
to patients who have had multiple hospital admissions and/or complex treatments. Under


                                              13
the program, agency nurses work with the providers and patients to facilitate care in home
settings and to avert preventable hospital readmissions. For Fiscal Year 1994-95, the
agency documented savings of $11.2 million for 2,349 cases.3’ The State legislature was
impressed enough to authorize funding for 46 new positions to support the program; this
at a time when the agency’s capitated managed care program was moving full speed
ahead.

Finally, within individual fee-for-service sectors, one can find some efforts to minimize
the adverse effects associated with downsizing. Striking in this regard is the Oregon
agency’s initiative in using prisoners to respond to basic telephone inquiries by providers
and beneficiaries. Facilitated by a Statewide referendum that called for prisoners to be
engaged in training or employment, this initiative has enabled a downsized provider
relations staff to focus on more complex inquiries and to reduce its backlog of billing
exceptions.




                                              14 

               RETOOLING                      AS      AN       ISSUE


Retooling   of Medicaid agencies for managed care has been a low priority issue.

This has been true for Medicaid agencies’ leadership, the State legislatures, and the Health
Care Financing Administration of the U.S. Department of Health and Human Services. In
each of these settings, the focus of those concerned with managed care is on the substance
of the effort as it affects providers, beneficiaries, and taxpayers. In the States we
reviewed, even in those where managed care is well advanced, the emphasis on program
design and implementation has been nearly all encompassing. Further, although important
work has been done in developing conceptual frameworks, overall missions, and long-
term plans, agency managers find themselves compelled to concentrate on near-term
actions, often in a reactive rather than proactive mode. “Long-term around here,” said
one agency manager, “is about 2 months.”

In this environment, agency leadership from time to time has given substantial attention to
reorganizations intended to position the agency more effectively for the transition to
managed care. But the thorny particulars of reorienting, retraining, and redeploying staff
for new roles typically have remained on the backburner. And State legislatures to this
point have expressed little interest in these particulars.

The Health Care Financing Administration (HCFA) has indicated some concern about
these administrative issues. Its Medicaid monitoring guide for regional office officials
raises some general questions that bear on the Medicaid agency’s organizational readiness
to carry out a managed care program. More notably, in its guide intended to help HCFA
reviewers assess the readiness of States to carry out Section 1115 waivers, it has a section
on State administration that poses some pertinent “retooling” questions to address. It asks
for instance: ”. .what problems does the State foresee in running two parallel Medicaid
programs? How will the two programs be coordinated?” It also asks: “Have key staff
been hired and trained.. . .?‘I

These and a few other such questions posed by HCFA address important issues concerning
how Medicaid agencies equip their organizations. At times, they have led to
communications with State officials about the adequacy of administrative resources being
devoted in support of managed care efforts. But they typically are overshadowed by
hundreds of other questions and communications focusing on the programmatic content
and processes of managed care.




                                             15 

                    RECOMMENDATIONS

Our review indicates that during Stage I and even well into Stage II, State Medicaid
agencies have not found it necessary to give major attention to the retooling challenges
addressed in this report. In part, this is because the agencies’ managed care initiatives
have not yet had a substantial effect on their fee-for-service operations and staff. It is also
because they have been able to assemble a core of talented staff who have been fast
learners and have assumed the lion’s share of design and early implementation
responsibilities. Some of the agencies have been more aggressive than others in tackling
and anticipating the internal organizational changes that will be necessary as they increase
their commitment to managed care, but even in these cases, the efforts are more
appropriately characterized as backburner rather than frontburner matters.

As Medicaid agencies approach and enter Stage III, this situation will have to change. As
the decline in fee-for-service workloads accelerates, agency managers will be compelled to
give high priority to how they redeploy most of their workforce into very different roles,
orient them to a new mission, train them to develop new skills, and at the same time make
certain that remaining fee-for-service operations continue to perform adequately. In the
midst of all this, some, and perhaps most, of the agencies will also have to engage in
significant downsizing of their staffs. A transformed agency focused on full-risk managed
care and prudent purchasing typically will not require the staffing levels of traditional
Medicaid agencies.

This transition presents major opportunities, The inevitable disruption provides
management with a chance to reengineer their agencies in ways that enhance their overall
productivity. In fact, given the scope of the internal changes necessary, Medicaid
agencies could well serve as pioneers for workforce reforms for all of State government.
Moving in this direction, however, will call for substantial support from both State
governors and State legislatures. In particular, they would have to be willing to allow for
and even urge changes in State civil service systems that now impede agency efforts to
make most effective use of their human resources.

At the same time, the transition presents major dangers, particularly if the agencies are
not adequately prepared for them, In the fee-for-service sector, lower levels of priority,
innovation, and morale could erode service to beneficiaries and providers still dependent
on that sector, and could weaken important oversight activities. In the expanded managed
care sector, poor staff training, motivation, and organization could undermine the
transition to capitated health care arrangements that State government is counting heavily
upon to help contain Medicaid costs and improve the beneficiaries’ access to good quality
services.

The lead role here is that of the States. But given the partnership nature of the Medicaid
program, the Federal government and State governments should work cooperatively in



                                              16 

finding effective ways of dealing with these challenges. Toward that end, we direct the
following recommendations to the Health Care Financing Administration:

The HCFA should provide forums to help State Medicaid managers take advantage of
the opportunities managed care presents for retooling their agencies and to minimize
the associated dangers.

These forums could be convened at the national level, through the establishment of a work 

group or technical advisory group, as well as at regional levels, through the efforts of 

regional offices. State environments are too varied to expect that the development of a set 

of explicit national guidelines would be feasible. However, written analyses and 

discussions of lessons learned and promising approaches identified by State officials 

themselves could be quite useful. It could be particularly useful to tap into the 

experiences of those States where Medicaid managed care penetration is well advanced. 


This kind of activity is especially important in view of our finding that State officials 

rarely get to attend conferences to become exposed to lessons learned by other States in 

moving from fee-for-service to managed care environments. 


The HCFA should revise its review and monitoring protocols so that they devote
greater attention to how State Medicaid agencies are handling the organizational
challenges associated with expanded managed care.

These issues are too complex and too rooted in the distinctive characteristics of State
political and organizational cultures to be conducive to checkmark certifications by federal
reviewers. But in the course of its efforts to monitor State agency managed care
initiatives, to review Section 1915 and 1115 waiver requests, and, most especially, to
evaluate Section 1115 research and demonstration projects, HCFA (and its contractors)
should incorporate greater discussion, inquiry, and assessment of retooling issues into its
reviews. For agencies approaching and into Stage II, these reviews should devote
particular emphasis to agency plans and activities involving the redeployment of fee-for-
service staff. At the least, this process could help generate more attention to these issues
at the State level. Beyond that, it could well yield insights that are helpful to State agency
managers.

The HCFA, in its ongoing reviews of State Medicaid agencies, should scrutinize
possible adverse effects of managed care expansion on the performance of established
fee-for-service funct,ions.

In these reviews, HCFA should give special attention to possible danger signs we noted
concerning third-party-liability, surveillance and utilization review subsystems, and drug
utilization review.

With respect to third-party-liability (TPL), HCFA has been well aware of the dangers that
we note. For some time it has been working with State representatives and the American
Public Welfare Association through a technical assistance group addressing the dangers


                                              17
and how to address them. Most recently, these efforts have led to (1) the design and
distribution of a survey to obtain up-to-date information on how States are handling TPL
for beneficiaries in managed care, (2) the restructuring of State data reporting
requirements to ensure that States report to HCFA third-party collections made by health
plans, and (3) joint agreement that the American Public Welfare Association will prepare
for the State Medicaid agencies a technical assistance piece that will offer guidance on
how to incorporate TPL responsibilities in contracts with health plans.32 These are
constructive initiatives. Our recommendation is intended to reinforce their significance
and to encourage State Medicaid agency leadership to be fully alert to the most cost-
effective ways of pursuing third-party-liability in managed care environments.

In regard to surveillance and utilization review subsystems (SURS), HCFA’s Program
Integrity Group has been undertaking initiatives that could help improve the effectiveness
of State SURS units.33 In response to the recent OIG report on these units, for instance,
HCFA noted that it plans for these units to be users of its recently developed fraud
investigation database. However, the intent of this initiative would be undermined if the
remaining fee-for-service SURS units in the States lack sufficient staff resources or
expertise to take full advantage of this database. This matter may warrant some attention
by the Program Integrity Group.

For drug utilization review, finally, State Medicaid agencies and HCFA look to the
collection and analysis of encounter data from plans as a way of overseeing their
performance on drug management issues and minimizing the kind of danger we note in
this report. However, with such efforts being in their very early stages, additional
measures could be warranted, In that context, HCFA could work with the Medicaid
agencies to identify ways of using the health plan contract as a vehicle for holding plans
more fully accountable for how they manage drug therapies. These could involve the
incorporation into the contracts of: (1) performance measures concerning prescription
drugs that are set forth in the Health Plan Employer Data Information Set developed by
the National Committee for Quality Assurance and (2) specific assurances that plans would
obtain in their subcontracts with PBMs. 34 It could also involve, as we have noted in a
previous report, increased State review of pharmacy practice in its on-site monitoring of
the plans.




                                             18 

COMMENTS                       ON       THE        DRAFT              REPORT


We solicited and received comments on the draft report from the Health Care Financing
Administration, the Acting Assistant Secretary for Health (ASH), and the Assistant
Secretary for Planning and Evaluation (ASPE). The ASPE concurred without elaboration.
The HCFA and ASH comments appear in full in appendix B. Below we summarize them
and offer our response in italics.

The HCFA concurred with our first two recommendations. It reinforced the importance
of using existing mechanisms to help States learn from one another as they move from
fee-for-service to managed care arrangements. It also agreed with the importance of
reviewing and revising HCFA monitoring protocols so that they are sufficiently sensitive
to the organizational challenges associated with expanded managed care.

With respect to our third recommendation calling for the State Medicaid agencies to
scrutinize possible adverse effects of managed care expansion on the performance of
established fee-for-service functions, HCFA offered a partial concurrence. It noted that
actions taken in response to the first two recommendations could alleviate the need for
such scrutiny and that HCFA, as our report indicates, is already doing a good deal to
monitor possible adverse effects.

In line with the above comment, HCFA suggested that our reference to “danger signs” in
the fee-for-service sector be changed to “concerns.” It also suggested that the States
discussed in the report be given the opportunity to comment on it.

We considered HCFA ‘s suggestion on characterizing the possible problems in the fee-for-
service sector as “concerns ” rather than “danger signs. ” We decided to retain the latter
term because it more accurately reflected what we heard and observed in the study States.
At the same time, as we note in the report, we present the danger signs as early alerts
that could emerge as significant problems if not adequately addressed.

Concerning HCFA’s other comment about obtaining feedback from the States reviewed, we
have received considerable comment from them during the course of framing ourflndings
and recommendations. We are distributing the report widely among the States, and, as is
our custom, will include with it a user feedback form inviting&rther comment.

Finally, the Acting Assistant Secretary of Health did not comment on specific findings or
recommendations in the report, but did offer four suggestions intended to enhance the
transition process to Medicaid managed care. They are helpful suggestions that warrant
consideration by the States and HCFA. They concern the involvement of the State health
departments in the managed care process, the need for broad stakeholder involvement in
the process, the need to strengthen the integration of public health concerns into the
change process, and the importance of strengthening compliance, monitoring, and
evaluation at the State level.


                                            19
                             APPENDIX                    A



              BACKGROUND          ONMEDICAID           MANAGED        CARE


Medicaid Expansion into Managed Care Programs

       Over the past 15 years, States have increasingly used managed care to provide
medical services for Medicaid beneficiaries. This trend has accelerated in the past few
years: in 1991, 2.7 million Medicaid beneficiaries were enrolled in managed care, by
1993, that number grew to 4.8 million, and in 1996, 13 million. As of June 1996,
39 percent of all Medicaid beneficiaries were enrolled in some kind of managed care
arrangement.

        To date, States have primarily enrolled adults and children in low-income families
into managed care, whereas aged or disabled beneficiaries remain under fee-for-service
systems. By 1996, over 500 managed care organizations were providing services to 13
million Medicaid beneficiaries.

        The movement to enroll Medicaid beneficiaries in managed care began in earnest
in the early 1980s as States experienced significant fiscal pressures due to rising Medicaid
costs. While States viewed managed care as a way to contain Medicaid costs, they were
constrained by Federal standards required for Medicaid enrollment in managed care.

        In response to mounting concerns, Congress allowed States greater flexibility to
deviate from those standards through amendments to the 1981 Omnibus Budget
Reconciliation Act.35 For example, the amendments allow States to pursue freedom-of-
choice waivers (under section 1915 of the Social Security Act) that release them from
certain Federal provisions, such as the free-choice-of-provider provision. To date, 42
States have freedom-of-choice waivers.

       States also can receive research and demonstration waivers under section
1115 of the Social Security Act. Since 1992, many States have aggressively pursued such
waivers. States implementing or pursuing 1115 waivers often extend, as a part of their
demonstration, insurance benefits to those not otherwise eligible for Medicaid, such as the
working poor and their families. As of this writing, HCFA has approved
18 research and demonstration waivers. Of those, 12 States have implemented their
programs, 5 are pending implementation, and one has no plans to implement.36 The
HCFA is currently reviewing nine States’ applications.37




                                           A-l
Defining Managed Care

        Although managed care organizations vary, they generally feature a focus on
primary, preventive health care and care coordination. That focus is believed to improve
care and access for enrollees. It is also thought to promote cost containment, thus slowing
the rate of increase in health care spending.

        The managed care organizations enrolling Medicaid beneficiaries can generally be
defined as fitting into one of two basic types: health maintenance organizations and fee-
for-service primary care case management (PCCM) programs. Both types feature
coordinated care. But each carries a different level of financial risk. Health maintenance
organizations (hereafter referred to as health plans or plans) are full-risk plans that
contract with Medicaid for a fixed fee per person and provide comprehensive services.38
PCCM programs comprise providers, usually primary care physicians, willing to serve as
gatekeepers and take responsibility for approving and coordinating enrollees’ care.
Medicaid pays PCCM providers on a fee-for-service basis, but they receive a case
management fee to cover their added responsibilities. Thus PCCM providers are at no
financial risk.

       Some agencies also contract with plans separately for certain aspects of care, such
as mental health, substance abuse, and dental care. The arrangements for these “carve-
outs” vary in terms of the services included and the level of financial risk the plan
assumes.




                                           A-2 

                             APPENDIX                   B


               COMPLETECOMMENTSON                    DRAFTREPORT


In this appendix, we present in full the comments of the Health Care Financing
Administration and the Acting Assistant Secretary for Health.




                                          B- 1 

                             APPENDIX                   C



                                      ENDNOTES 



 1. See, for examples, General Accounting Office, Medicaid: Data Improvements Needed
to Help Manage Health Care Program , (IMTEC-93-18), May 1993; General Accounting
Office, Medicaid: Ekperience with State Waivers to Promote Cost Control and Access to
Care, (T-HEHS-95-115), March 1995; Kaiser Commission on the Future of Medicaid,
Medicaid and Managed Care: Lessonsfiom the Literature, Washington, DC, March 1995.
John K. Iglehart, “Health Policy Report: Medicaid and Managed Care,” New England
Journal of Medicine (322) 25, June 22, 1995, 1727- 1731; Joel Schendler, “Implementing
a Managed-Care System in a Fee-for-Service Environment,” W Memo, ~01.7, no.7, July
 1995, pp. 29-31; Physician Payment Review Commission, Annual Report to Congress,
1995; General Accounting Office, “Medicaid Managed Care: More Competition and
Oversight Would Improve California’s Expansion Plan,” (HEHS-95-87), April 1995;
National Academy for State Health Policy, Medicaid Managed Care: A Guide for States,
Portland, Maine, 1995; and Michael S. Sparer, Medicaid Reform and the Limits of State
Health Reform, (Philadelphia: Temple University Press, 1996.

2. In this report, we use the term “organizational” challenges in reference to those
internal issues affecting the productivity of the agency. They center around how agency
management relates to agency staff and defines their missions, roles, and tasks. These
challenges are of course related to, but yet distinct from those focusing on the design,
implementation, and assessment of managed care efforts.

3. The National Academy for State Health Policy has given some attention to these
challenges. See its chapter on administrative issues in Medicaid Managed Care Guide: A
Guide for States.

4. Donna Checkett, “A State Medicaid Director on Medicaid Managed Care,” Health
Afiirs 15 (3), Fall 1996, 172.

5. 	 The States are California, Florida, Ohio, Massachusetts, Minnesota, Missouri, New
York, Oregon, Rhode Island, and Utah. Our in-depth visits were to California,
Minnesota, and Massachusetts.

6. Nowhere, it seems, has Medicaid managed care been ushered in more quickly than in
Tennessee. See G. Girden Bonnyman, Jr., “Stealth Reform: Market-Based Medicaid in
Tennessee,” Health Amirs 15 (2) Summer 1996, 306-14; Jim Cooper (former
congressman), “TennCare: Tennessee’s Medicaid Experiment,” Letter to the Editor in
Health Amirs 15 (4), 282; and David M. Mirvis, et al., “TennCare--Health System




                                           C-l 

Reform for Tennessee,” Journal of the American Medical Association, ” (274) 15, October
18, 1995, 1235-1241.

7. 	 In an extended discussion, Medicine and Health reports on four basic stages of health
care market development as delineated by the American Practice Association. See
Christina Kent, editor, “Perspectives,” Medicine and Health, April 17, 1995, l-4.

8. California, for instance, has undertaken some major Medicaid managed care efforts in
the early 1970s. They turned out to be largely unsuccessful, but provided a body of
lessons learned experience to draw upon in framing the more recent initiatives. See
Sparer, Medicaid and the Limits of State Health Reform.

9. The California Medicaid program covers about 5.5 million enrollees. In contrast, the
Rhode Island program covers a little more than 100,000. Clearly, the dimensions of the
retooling challenges are very different in these two settings.

10. The complexity is greatly influenced by factors such as the number and type of carve-
outs; the number and scope of relationships with other State agencies, with county
governments, and with local service providers (such as community health centers); and the
number of linguistic groups being served (about 40 in California)

11. In particular, these would involve State health departments and State departments
responsible for licensure of insurance entities.

12. Given that our categories are general and that the pace of change in the States is
often quite fast, any assignment of individual States to particular Stages, as we have done,
can be risky. Perhaps the most difficult assignment in this regard is Massachusetts. At
this writing, PCCM remains as the dominant mode of managed care in Massachusetts.
However, the Medicaid agency has a substantial number of disabled enrolled in PCCM
arrangements and the agency leadership has infused throughout much of the agency a
purchaser orientation much like that we describe for Stage II or III States.

13. Our typology of five challenges omits one that might normally be regarded as one of
the most prominent: the adequacy of staffing levels to carry out managed care
responsibilities. In our presentation, that challenge is to some degree subsumed under
some of the others, which we found more compelling. For instance, the challenges of
establishing a core team and acquiring the necessary knowledge and skills clearly involve
obtaining adequate numbers of staff.

None of this is meant to minimize the danger of managed care initiatives being
jeopardized by having too few staff associated with their implementation. Indeed, in a
recent review of five Section 1115 Medicaid managed care demonstration projects, the
authors offer the following warning: “New programs need to have enough administrative
resources. ” They add: “At least in the short term, states may require more
administrative capacity, particularly if they are continuing to use fee-for-service for some
populations or services. ” See Mathematics Policy research, Inc. and the Urban Institute,
Implementing State Health Care Reform: What Have We Learned From The First Year?


                                            c-2
The First Biannual Report of the Evaluation of Health Reform in Five States. Submitted
to Office of research and Demonstrations, Health Care Financing Administration,
December 18, 1996.

14. In Florida, responsibility for managed care is split between two offices. The full-risk
component is led out of the Bureau of Managed Care in the Division of Quality
Assurance. The PCCM initiative is run out of the fee-for-service operation in the
Division of State Health Purchasing.

15. Of course, this complaint is not unique to managers in the Medicaid agency.
Mangers in other State and Federal agencies regularly express similar concerns about the
lack of flexibility afforded by personnel systems. But for an agency seeking to introduce
a fundamental shift in its mission and operations, such inflexibility can present particularly
serious problems.

16. Although perhaps a bit dramatically, one agency manager conveyed the seriousness of
the situation as viewed by many Medicaid program staff: “Change is coming too fast to
adjust employee perceptions. It’s like stages of death. It’s like a corporate merger. It’s a
rough transition. It’s like mourning for a loss.”

17. In Massachusetts, consultants from the University of Massachusetts interviewed staff
and conducted focus groups involving staff, The effort identified some communication
problems within the agency and led to a series of initiatives addressing them. These
included an agencywide newsletter, regular off-site meetings with senior staff to discuss
benefit plan progress, a survey of training needs, and some field reorganization.

18. In Missouri, after interviewing about 75 agency staff, a consultant developed a four-
phase process to prepare the agency for the internal changes necessary to carry out
expanded managed care responsibilities. It involved two retreats as well as consultant-
facilitated task groups and technical assistance to help agency management and staff
“make the necessary adjustments to the new structures and systems. . . ”

19. As the State Medicaid agency that has gone the furthest in transforming itself from
fee-for-service a managed care, the Oregon agency has a substantial body of experience to
draw upon in further explaining the challenges of retooling and understanding the lessons
learned in responding to them. Unfortunately, in our inquiry, our contacts with Oregon
officials did not involve a site visit and were limited to brief telephone conversations; so
in this report we are unable draw substantially on the Oregon experience. It does, we
believe, warrant further examination, in the context of the issues raised in this report.

Of course, there is a substantial literature on Oregon’s Medicaid reforms. See, for
examples, Mathematics Policy Research (for the Kaiser Foundation and Commonwealth
Fund), Managed Care and Low-Income Populations: A Case Study of Managed Care in
Oregon, July 1995; and John A. Kitzhaber, “The Governor of Oregon on Medicaid
Managed Care, ” Health Aflairs (15) 3, Fall 1996, 167-69.




                                             c-3
20. 	 This was a particular problem for the Oregon agency when, in 1994, it was
substantially expanding the number of individuals served by the Medicaid program. The
fee-for-service provider relations staff found itself faced with significant increases in
telephone inquiries and billing exceptions. Before long a substantial backlog developed
which added to frustrations.

21. A politically sensitive point not usually emphasized by the architects of managed care
reforms is that for a time dual managed care/fee-for-service systems will actually be more
expensive to administer than traditional fee-for-service systems. It is not until sizeable
decreases occur in fee-for-service claims volume that significant opportunities for
administrative savings are likely to emerge.

22. In those agencies that are increasingly oriented toward a prudent purchasing
perspective and explain their mission in those terms (as does the Ohio agency), the
distinctions between fee-for-service and managed care may become increasingly blurred.
According to former HCFA Administrator Bruce Vladeck and health care consultant Lynn
Etheredge, this, in fact, is happening in health care markets across the country. See
Robert Cunningham, editor, “Perspectives: Government as Purchaser: Making Policy by
Contract,” Medicine and Health, October 14, 1996, l-4.

23. Consultants hired by State Medicaid agencies often recommend that TPL be delegated
to health plans to simplify administration for the agency. As long as the capitated rate
reflects prior levels of TPL recovery on the fee-for-service side, this delegation tends to
be attractive to the Medicaid agencies.

24. 	 A California Medicaid official has estimated that “without TPL savings, California’s
Medicaid costs would be over 20 percent higher. ” See Barbara V. Carr, “Who Manages
Third Party Liability when a State Contracts its Medicaid Program to Managed Care
Plans,” March 1995.

25. 	 See Jane Horvath, “Third Party Liability in Risk-Based Managed Care: Issues and
Options,” in National Academy for State Health Policy,” Medicaid Managed Care: A
Guide for States, 1995, 111-65-81.

26. Office of Inspector General, Office of Evaluation and Inspections, “Surveillance and
Utilization Review Subsystems’ Case Referrals to Medicaid Fraud Control Units,” (OEI-
07-95-00030), November 1996.

27. The legislation exempted health plans contracting with Medicaid agencies from the
requirements of the DUR program it set forth.

28. Office of Inspector General, Office of Evaluation and Inspections, “Medicaid Drug
Use Review Programs: Lessons Learned by States, ” (OEI-Ol-92-00800), May 1995 (Draft
Report).

29. 	 “Experiences of Health Plans with Pharmacy Benefit Management Companies,“
(OEI-01-95-001 lo), December 1996.


                                           c-4
30. In Massachusetts, for example, the Medicaid agency leadership treats its PCCM 

program as an internally managed health plan and manages its fee-for-service providers 

accordingly. This is reflected, for example, in its hospital contracting approaches and in 

its system of profiling “network managers” and providers. 


31. California Department of Health Services, “Medical Case Management: A Successful 

Partnership,” September 1995. 


32. It also bears note that in May 1996, HCFA sent to the State Medicaid agencies a 

draft manual issuance that spells out various options available to the States in carrying out 

TPL responsibilities in managed care environments. 


33. The Program Integrity Group has been established to address fraud and abuse issues 

affecting the Medicare and Medicaid programs. 


34. This and the following recommendation were made in our aforementioned report 

entitled, “Experiences of Health Maintenance Organizations with Pharmacy Benefit 

Management Companies. ” 


35. The 1981 amendments also allow States to enroll Medicaid beneficiaries in limited-

risk managed care organizations (i.e., no risk for inpatient care) that fail to meet Federal 

qualifications. 


36. The following States have implemented their 1115 waivers: Alabama, Arizona, 

California, Delaware, Hawaii, Minnesota, Ohio, Oklahoma, Oregon, Rhode Island, 

Tennessee, and Vermont. The following States have approved 1115 waivers that are 

pending implementation: Florida, Illinois, Kentucky, Maryland, and Massachusetts. 

South Carolina has an approved waiver but no plans for implementation. 


37. States with 1115 waivers under review are: Georgia, Kansas, Louisiana, Missouri, 

New Hampshire, New York, Texas, Utah, and Washington. 


38.Federal regulations define comprehensive services as either inpatient hospital services 

and one other mandatory service or three or more mandatory services 

(42 CFR 434.21). Mandatory services are defined in statute as inpatient and outpatient 

care, physicians’ services, and laboratory and diagnostic services, among others (42 USC 

$1396d(a)). 





                                             c-5
